HHS/OIG-Audit--"Follow-up Audit of Medicaid Clinical Laboratory Services at the Illinois Department of Public Aid - Springfield, Illinois , (A-05-98-00050)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of Medicaid Clinical Laboratory Services at the Illinois
Department of Public Aid - Springfield, Illinois," (A-05-98-00050)
July 7, 1999
Complete Text of Report is available in PDF format
(1.12 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether IDPA had taken satisfactory
corrective actions with respect to previously reported findings related to Medicaid
payments for clinical laboratory services.
Our follow-up audit determined that IDPA had implemented certain computer edits
and updated its provider instructions as recommended in the previous audit.
However, IDPA has not taken any action to recover payments in excess of Medicare
bundled rates from the largest providers as previously recommended. In their
response to our draft report, the IDPA concurred with our first two recommendations,
but did not concur with our recommendations to recover estimated overpayments.